No. 20-891
IN THE

AMERICAN AXLE & MANUFACTURING, INC.,
Petitioner,
v.
NEAPCO HOLDINGS LLC AND
NEAPCO DRIVELINES LLC,
Respondents.
CERTIFICATE OF COMPLIANCE
I hereby certify that I am a member in good standing of the bar of this Court
and that, pursuant to Rule 33.1(h) of the Rules of this Court, the Brief in Opposition
complies with the type-volume limitations of Rule 33.1(g). Exclusive of the exempted
portions identified in Rule 33.1(d), the brief contains 8,994 words. (The undersigned
is relying on the word-count utility in Microsoft Word 2016, the word-processing
system used to prepare the brief, consistent with Rule 33.1(d).)

March 31, 2021
J. Michael Huget
HONIGMAN LLP
315 E. Eisenhower Parkway
Suite 100
Ann Arbor, MI 48108
(734) 418-4200
mhuget@honigman.com
Counsel for Respondents

